                   Courts Are Not Always Notified When
                    Criminals Fail to Comply With Their
                   Sentences to Settle Civil Tax Liabilities

                                    March 2004

                        Reference Number: 2004-10-060




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                      DEPARTMENT OF THE TREASURY
                                           WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                             March 12, 2004


       MEMORANDUM FOR CHIEF, CRIMINAL INVESTIGATION


       FROM:                   Gordon C. Milbourn III
                               Acting Deputy Inspector General for Audit

       SUBJECT:                Final Audit Report - Courts Are Not Always Notified When
                               Criminals Fail to Comply With Their Sentences to Settle Civil Tax
                               Liabilities (Audit # 200310012)

       This report presents the results of our review of the Criminal Investigation (CI) function’s
       controls to identify, report, and monitor subjects’ accounts relating to their sentences to
       settle civil tax liabilities. The overall objective of this review was to determine if the CI
       function’s controls and procedures are effective to ensure convicted criminals comply
       with the terms of their sentences requiring the settlement of Internal Revenue Service
       (IRS) civil tax liabilities.
       Upon completion of an investigation in which criminal violations of the law have been
       documented, the CI function forwards the results of the investigation to the Department
       of Justice for prosecution. The prosecution process may result in the subject of the
       investigation signing a plea agreement, pleading guilty, or being found guilty as the
       result of a trial. A sentence is then imposed on the subject and may include conditions
       relating to the settlement of the subject’s civil tax liabilities, such as the filing of tax
       returns or payment of tax liabilities. The CI function should take whatever steps are
       necessary to initiate appropriate legal action in any instance in which a subject has
       failed to comply with the conditions of a sentence relating to the settlement of civil tax
       liabilities.
       In summary, we found that existing procedures within the CI function and
       Small Business/Self-Employed (SB/SE) Division did not effectively ensure convicted
       criminals, who did not comply with the conditional terms of their sentences requiring the
       settlement of their IRS tax liabilities, were reported to the courts for appropriate legal
       action. The IRS procedures were either unclear or did not assign specific responsibility
       for monitoring these taxpayers. In addition, our results indicated the CI function’s
                                                           2


Management Information System (CIMIS)1 contains data errors that could affect
analyses used for internal management decisions or results presented in ad hoc reports
provided to either internal or external stakeholders.
We recommended the Chief, CI, in conjunction with SB/SE Division management,
develop clear and concise guidelines to define responsibilities and procedures to ensure
the IRS is controlling and monitoring the accounts of criminal subjects whose court
sentences required the settlement of their IRS tax liabilities. To improve the monitoring
of these cases within the CI function, we recommended the Chief, CI, ensure court
documents are verified; provide formal training to first-line managers on the use of the
Measures for Managers (MOM) system that identifies the cases; and seek the advice of
the respective CI function and SB/SE Division Counsels, in concert with the Office of the
Assistant Chief Counsel (Disclosure and Privacy Law), regarding the disclosure of tax
returns and tax return information to probation officers. We also recommended the
Chief, CI, develop a process to verify and validate the CIMIS data, and assess the
clarity of guidance for coding some data fields and revise, as appropriate, to address
the errors identified in the CIMIS.
Management’s Response: In general, the Chief, CI, believes certain steps can be taken
to enhance the coordinating process with the SB/SE Division and the United States
Attorney Offices. CI function management agreed to provide training to first-line
managers to help them understand and effectively use the MOM system to identify,
report, and monitor terms and conditions on tax investigations. The Chief, CI, agreed to
coordinate with the SB/SE Division to review and revise as necessary existing
procedures and guidance. The Chief, CI, also agreed to develop a process to identify
questionable data field entries in the CIMIS and review existing procedures and CIMIS
input instructions on identifying, reporting, and monitoring terms and conditions.
Although the Chief, CI, did not agree with Recommendation 1, stating that existing case
closing documents instruct the case agent to attach court documents and send them to
the appropriate civil functions, CI management stated they would reinforce these
existing procedures. The Chief, CI, also did not agree with Recommendation 4,
advising that procedures already exist regarding disclosure of tax returns and tax return
information to probation officers, and both the CI function and SB/SE Division will
reference these procedures in communications issued to field offices. In addition, the
Chief, CI, did not agree with our statements that the CIMIS errors have a measurable
impact on tax administration because the CI function does not report information from
these data fields. Management’s complete response to the draft report is included as
Appendix V.
Office of Audit Comment: Regarding the case closing procedures, we believe
reinforcing the existing procedures, along with the CI function’s commitment to provide
additional training and revise other procedures as described elsewhere in this report,


1
 The CIMIS is a database that tracks the status and progress of criminal investigations and the time expended by
special agents. It is also used as a management tool that provides the basis for decisions of both local and national
scope.
                                           3


should ensure the required terms of probation are properly identified, reported, and
monitored. Regarding the disclosure of information, we believe the law may allow for a
broader interpretation than that provided in the procedures. Our recommendation was
designed to ensure management considered whether the existing guidance covers a
broader interpretation and provided clarification or examples if they believed the
guidance may not be interpreted consistently. As to the impact of the CIMIS errors on
tax administration, we recognized in our report that these data fields are not routinely
used in external or internal reports. Nonetheless, fines and criminal deficiency amounts
can be an integral part of the impact of investigative cases. Thus, these data fields
should be accurate to provide management with reasonable assurance that this
information is reliable if used in ad hoc reports for internal management deliberations.
While we still believe our recommendations are worthwhile, we do not intend to elevate
our disagreement concerning these matters to the Department of the Treasury for
resolution.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.
              Courts Are Not Always Notified When Criminals Fail to Comply With
                         Their Sentences to Settle Civil Tax Liabilities




                                                  Table of Contents


Background ............................................................................................... Page 1
Criminals Who Did Not Comply Were Not Always Reported to
the Courts for Additional Legal Action ....................................................... Page 2
         Recommendations 1through 3: ..................................................... Page 9
         Recommendation 4: ...................................................................... Page 10

The Criminal Investigation Management Information System Contained
Numerous Errors That Resulted, or Could Result, in Inaccurate
Information................................................................................................. Page 11
         Recommendation 5: ...................................................................... Page 14
         Recommendation 6: ...................................................................... Page 15

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 16
Appendix II – Major Contributors to This Report........................................ Page 18
Appendix III – Report Distribution List ....................................................... Page 19
Appendix IV – Outcome Measures ............................................................ Page 20
Appendix V – Management’s Response to the Draft Report ..................... Page 21
             Courts Are Not Always Notified When Criminals Fail to Comply With
                        Their Sentences to Settle Civil Tax Liabilities

                                   The mission of the Internal Revenue Service’s (IRS)
Background
                                   Criminal Investigation (CI) function is to serve the
                                   American public by investigating potential criminal
                                   violations of the Internal Revenue Code (I.R.C.) and related
                                   financial crimes in a manner that fosters confidence in the
                                   tax system and compliance with the laws.
                                   Upon completion of an investigation in which criminal
                                   violations of the law have been documented, the results of
                                   the investigation are forwarded to the Department of Justice
                                   for prosecution. The prosecution process may result in the
                                   subject of the investigation signing a plea agreement,
                                   pleading guilty, or being found guilty as the result of a trial.
                                   A sentence is then imposed on the subject and may include
                                   conditional terms of probation or supervised release relating
                                   to the settlement of the subject’s civil tax liabilities, such as
                                   the filing of tax returns or payment of tax liabilities. If
                                   subjects violate a condition of their sentences, the court may
                                   resentence them to include a period of imprisonment.
                                   The CI function and Small Business/Self-Employed
                                   (SB/SE) Division each have responsibility for monitoring
                                   compliance with conditional terms of probation or
                                   supervised release. The Technical Services organization in
                                   the SB/SE Division should notify the CI function if tax
                                   liabilities have not been fully satisfied prior to the expiration
                                   of the probationary or supervised release date.
                                   Upon notification, the CI function should take whatever
                                   steps are necessary to initiate appropriate legal action.
                                   Vigorous enforcement of the criminal provisions of the
                                   I.R.C., along with appropriate civil sanctions, contributes to
                                   maintaining voluntary compliance and public confidence in
                                   the fairness of the tax system.
                                   During Fiscal Years (FY) 2000 through 2002, the CI
                                   function closed about 7,000 investigations in which the
                                   subject was sentenced for a criminal violation. According
                                   to data obtained from the CI function’s Management
                                   Information System (CIMIS),1 approximately 1,050 of these

                                   1
                                     The CIMIS is a database that tracks the status and progress of criminal
                                   investigations and the time expended by special agents. It is also used
                                   as a management tool that provides the basis for decisions of both local
                                   and national scope.
                                                                                                    Page 1
            Courts Are Not Always Notified When Criminals Fail to Comply With
                       Their Sentences to Settle Civil Tax Liabilities

                                  individuals had conditional terms of their sentences relating
                                  to the settlement of their civil tax liabilities (e.g., file future
                                  returns, pay tax liabilities, etc.). The data further indicated
                                  about 200 of the 1,050 individuals had conditional terms
                                  that needed to be satisfied before October 1, 2002.
                                  We conducted this audit between May and October 2003
                                  in the National Headquarters CI function office in
                                  Washington, D.C., and the Chicago, Illinois;
                                  Cleveland, Ohio; Newark, New Jersey; and
                                  Portland, Oregon, CI function field offices. In addition, we
                                  contacted SB/SE Division personnel in the Chicago, Illinois;
                                  Cincinnati, Ohio; Denver, Colorado; Newark, New Jersey;
                                  and Seattle, Washington, offices. The audit was conducted
                                  in accordance with Government Auditing Standards.
                                  Detailed information on our audit objective, scope, and
                                  methodology is presented in Appendix I. Major
                                  contributors to the report are listed in Appendix II.
                                  The IRS’ existing procedures are ineffective in ensuring
Criminals Who Did Not Comply
                                  convicted criminals are referred to the courts for additional
Were Not Always Reported to
                                  legal action when they do not comply with the terms of their
the Courts for Additional Legal
                                  sentences that require settlement of their civil tax liabilities.
Action
                                  This ineffective coordination between the CI function and
                                  the SB/SE Division also contributed to the IRS’ inability to
                                  properly identify and monitor individuals sentenced to
                                  probation or supervised release. As a result, these
                                  individuals continue to remain noncompliant, which could
                                  undermine the effectiveness of the judicial system when
                                  considering the alternatives to or the length of incarceration.
                                  This could also negatively affect the public’s confidence in
                                  the fairness of the tax system.
                                  We reviewed all 37 cases closed in 4 CI function field
                                  offices during FYs 2000, 2001, and 2002 in which
                                  individuals had been sentenced and a probation expiration
                                  date prior to October 1, 2002, had been input to the CIMIS.
                                  We also reviewed a random selection of 1362 of 627 cases
                                  closed by the same 4 CI function field offices during the
                                  same period in which the individuals had been sentenced



                                  2
                                    One case was a duplicate selection. A total of 135 different cases were
                                  reviewed.
                                                                                                   Page 2
Courts Are Not Always Notified When Criminals Fail to Comply With
           Their Sentences to Settle Civil Tax Liabilities

                      and no probation expiration date had been input to the
                      CIMIS.
                      Table 1 summarizes the conditions or errors we identified
                      during our review of these cases.
                                            Table 1: Case Review Results
                            Condition or Errors        37 Cases With       135 Cases
                                Identified               Probation          Without
                                                      Expiration Date      Probation
                                                                         Expiration Date
                          Conditional Terms Not             11             Not Applicable
                          Imposed

                          Probation Expiration Date      14 of 26            36 of 1353
                          Incorrect
                          Computer Transaction            6 of 26             31 of 36
                          Code (TC) 910 Not Input4
                          The CI Function Did Not        13 of 26             15 of 36
                          Notify the SB/SE
                          Division That There Were
                          Conditional Terms
                          Individuals Did Not            18 of 26             9 of 36
                          Comply With Conditional
                          Terms
                          Probation Officers5 or         12 of 18              7 of 9
                          Courts Were Not Notified
                          of the Subject’s
                          Noncompliance by the CI
                          function or the SB/SE
                          Division
                      Source: IRS and court records.

                      Several factors affected the IRS’ collective efforts to
                      identify individuals, who should be monitored for
                      compliance with conditional terms of probation or
                      supervised release, and monitor those accounts:



                      3
                        For these 36 cases, court records showed that a probation expiration
                      date should have been entered into the CIMIS but was not.
                      4
                        The CI function uses TC 910 to monitor accounts of taxpayers on
                      probation (relating to the settlement of civil liabilities and fines).
                      5
                        Probation officers supervise individuals who are placed on probation
                      or supervised release by a sentencing court and should report any
                      violations to the court.
                                                                                         Page 3
Courts Are Not Always Notified When Criminals Fail to Comply With
           Their Sentences to Settle Civil Tax Liabilities

                          •   The CI function’s procedures were ineffective.
                          •   The SB/SE Division’s procedures were ineffective.
                          •   The CI function and SB/SE Division did not
                              coordinate efforts effectively.
                          •   Disclosure procedures may have prevented some
                              criminals from being turned in for violating the
                              terms of their sentences.
                      The CI function’s procedures were not effective
                      When a sentence imposed on a subject includes conditions
                      relating to the settlement of the subject’s civil tax liabilities,
                      the CI function enters the probation or supervised release
                      expiration date in the CIMIS. This enables CI function
                      managers to follow up prior to the expiration date to
                      determine if individuals have complied with the conditions
                      imposed. However, the input instructions state this data
                      field is for “tax cases” and “an entry is required if the court
                      specifies that probation of the sentence or supervised release
                      is conditional upon payment or settlement of the civil tax
                      liability.” Several managers interviewed stated they
                      considered a “tax case” as one that involved Title 266
                      violations. However, there are other titles and sections of
                      the United States Code7 that could involve or relate to tax
                      violations and are investigated by the CI function.
                      In addition, CI function personnel can request a computer
                      transaction code (TC 910) be entered on an individual’s tax
                      account to facilitate monitoring of the account. Quarterly
                      listings of tax accounts having this transaction code are
                      automatically generated and sent to CI function special
                      agents. These listings provide details of accounts showing
                      whether tax returns have been filed or liabilities have been
                      paid.
                      However, the CI function did not have any current Internal
                      Revenue Manual (IRM) procedures or guidelines for the
                      following:


                      6
                        26 U.S.C. is the I. R. C.
                      7
                        For example, 18 U.S.C. § 287 (2003), False, Fictitious, or Fraudulent
                      Claims; and 18 U.S.C. § 371 (2003), Conspiracy to Commit Offense or
                      to Defraud the United States.
                                                                                      Page 4
Courts Are Not Always Notified When Criminals Fail to Comply With
           Their Sentences to Settle Civil Tax Liabilities

                          •   Instructing when a TC 910 should be input to the tax
                              accounts of individuals who have been given
                              conditional terms of probation or supervised release.
                          •   Reviewing the transcripts generated by the input of a
                              TC 910 to an individual’s account.
                          •   Obtaining court documents when the case is closed
                              to determine if the settlement of civil tax liabilities is
                              part of the court sentence.
                          •   Notifying the SB/SE Division of individuals with
                              conditional terms of probation or supervised release
                              requiring the settlement of civil tax liabilities.
                      CI managers and special agents have access to a
                      memorandum template, through the CI function’s Document
                      Manager, which can be used to notify the SB/SE Division if
                      an individual has been given conditional terms of probation
                      or supervised release relating to the settlement of tax
                      liabilities. However, there were no procedures for
                      completing the template.
                      In addition, there was no standard CIMIS-generated report
                      distributed or made available to first-line managers to assist
                      with monitoring probation dates that have not expired.8
                      This information is available on the CI function’s Measures
                      for Managers (MOM) system;9 however, we were advised
                      there were no formal training or instructions regarding its
                      use.
                      The SB/SE Division’s procedures were not effective
                      The Technical Services organization within the SB/SE
                      Division is responsible for coordinating all civil
                      enforcement action on individuals who are under criminal
                      investigation and ensuring civil enforcement action is taken
                      to collect revenue where appropriate. It should update the
                      CI function on the status of cases assigned to it, and the
                      responsible SB/SE Division Territory Manager should

                      8
                        CI function management advised that CIMIS standard Report Seven
                      provides to the Special Agent-in-Charge (SAC) information on
                      unexpired terms of probation and that the SAC has the ability to
                      disseminate this information to the first-line managers.
                      9
                        The MOM system is a computer application that assists CI function
                      managers with managing group/agent inventory of cases.
                                                                                    Page 5
Courts Are Not Always Notified When Criminals Fail to Comply With
           Their Sentences to Settle Civil Tax Liabilities

                      notify the CI function by memorandum if tax liabilities have
                      not been fully satisfied 180 days prior to the expiration of
                      the probationary or supervised release period.
                      Based on discussions with Technical Services organization
                      personnel and a review of the Integrated Collection System
                      (ICS)10 case histories, the CI function was notified
                      concerning the status of the cases (either orally or by
                      memorandum) in 6 of 15 cases.11 There was no indication
                      the CI function was notified in 9 of 15 cases. Five of the
                      9 individuals had not complied with their conditional terms
                      of probation or supervised release to pay their tax liabilities
                      by the expiration date or within 180 days of the expiration.
                      Further, there was no indication in the ICS case histories
                      that the Technical Services organization personnel were
                      aware of the procedures or were appropriately monitoring
                      the cases and ensuring actions were taken to notify the CI
                      function of the status of the cases.
                      Coordination between the CI function and SB/SE
                      Division needs improvement
                      Procedures for the CI function and SB/SE Division did not
                      assign specific responsibilities for monitoring compliance of
                      all types of conditional terms relating to the settlement of
                      civil tax liabilities. The procedures assigning responsibility
                      to the SB/SE Division pertained to only those individuals
                      with outstanding tax liabilities. Conditions imposed by the
                      courts may require additional or other terms, such as the
                      filing of amended or delinquent tax returns or the timely
                      filing of future tax returns.
                      In addition, the Technical Services organization’s
                      procedures provide for notification by the CI function of
                      individuals who are under investigation or who have
                      conditional terms of probation or supervised release by


                      10
                         The ICS is a computer inventory system used by the Collection
                      function. Cases worked by revenue officers are controlled on the
                      system, and case actions are documented electronically.
                      11
                         These cases are associated with the sample of 62 cases with a
                      probation expiration date (see Table 1). They are the cases for which
                      Technical Services organization personnel were aware of the conditional
                      terms and the probationary period either expired or was within 180 days
                      of expiring.
                                                                                     Page 6
Courts Are Not Always Notified When Criminals Fail to Comply With
           Their Sentences to Settle Civil Tax Liabilities

                      means of a form12 the CI function uses to request input of its
                      computer transaction codes. However, the CI function had
                      no current procedures or instructions to send this form to the
                      Technical Services organization. We were advised that
                      either there were no formal procedures or instructions, or
                      they were removed from the CI function portion of the IRM
                      several years ago.
                      Several CI function managers advised us that, prior to the
                      IRS reorganization, some offices had effective local
                      procedures and good working relationships with the
                      Examination and Collection Divisions. However, since the
                      reorganization, coordination has suffered because there have
                      been no procedures clearly outlining responsibilities for
                      monitoring these cases.
                      Disclosure procedures may need clarification
                      Limitations on disclosure of tax returns or tax return
                      information to probation officers may have prevented the
                      referral to the courts of individuals who were not complying
                      with the terms of their sentences relating to the settlement of
                      their civil tax liabilities. CI function and SB/SE Division
                      procedures limit information disclosed to those years
                      specified in the conditions of probation issued by the court
                      or, alternatively, to the conviction years and those years for
                      which the individual is placed on probation. We believe it
                      is possible for IRS employees to interpret these procedures,
                      as worded, too narrowly. They could interpret the phrase
                      “years specified in the conditions of probation issued by the
                      court” as meaning that, absent specific years being
                      identified in the probation terms, permissible disclosures are
                      limited to conviction years and those years for which the
                      individual is placed on probation. We believe, however, the
                      disclosure laws13 would permit disclosure for all tax years
                      covered by the terms of the probation, even if no tax years
                      are specifically identified in the terms of the probation. For
                      example, if the terms of probation specified that the
                      individual must file all delinquent returns, disclosure could

                      12
                         Criminal Investigation Control Notice (Form 4135). However, CI
                      function management advised that this Form was not designed for civil
                      notification purposes.
                      13
                         26 U.S.C. § 6103(h)(4) (2003), Disclosure in Judicial and
                      Administrative Tax Proceedings.
                                                                                     Page 7
Courts Are Not Always Notified When Criminals Fail to Comply With
           Their Sentences to Settle Civil Tax Liabilities

                      be made with respect to years for which the individual has
                      not filed income tax returns.
                      Additional legal action occurred when individuals did
                      not comply and were reported to the courts
                      As previously mentioned, when the courts receive
                      notification that individuals failed to comply with the
                      conditional terms of their probation or supervised release,
                      they may resentence them. We identified eight individuals
                      that were reported to the courts for additional legal action.
                      The courts imposed additional prison terms in 3 of these
                      cases, ranging from 1 week to 90 days. This illustrates that
                      the monitoring process can have the intended effect if
                      followed. We did not obtain additional records from the
                      courts to determine why they did not impose additional
                      prison terms in the other five cases.
                      Collectively, the 27 individuals who did not comply with
                      the conditional terms of their probation or supervised
                      release had over $2.5 million in unpaid assessed taxes,
                      interest, and penalties and 57 unfiled returns at the time their
                      probationary periods expired. Although there may be
                      reasons individuals may not be able to comply with their
                      conditional terms requiring the settlement of their tax
                      liabilities (e.g., inability to pay, bankruptcy proceeding,
                      etc.), the courts should still be advised to determine if
                      additional punitive actions are appropriate.
                      The CI function’s responsibilities should not end with its
                      issuance of a case report and sentencing by the court. We
                      believe the CI function and SB/SE Division, in their roles to
                      ensure fairness in the tax system and voluntary compliance,
                      share the responsibility to ensure individuals satisfy the
                      terms of their court sentences. Promoting and encouraging
                      increased communication, as well as ensuring adequate
                      controls are in place over cases in which the settlement of
                      civil tax liabilities is a condition of the sentence, can help
                      accomplish these goals. If little or no effort is made to
                      ensure individuals comply, not only could this result in a
                      loss of revenue, it could also erode the public’s confidence
                      in the tax system if the individual remains noncompliant and
                      no action is taken to deter this behavior.


                                                                               Page 8
Courts Are Not Always Notified When Criminals Fail to Comply With
           Their Sentences to Settle Civil Tax Liabilities

                      Recommendations

                      The Chief, CI, should:
                      1. Establish procedures to ensure that, at the time of the
                         case closing, court documents are obtained and verified
                         to determine if the settlement of civil tax liabilities is a
                         part of the sentence.
                      Management’s Response: The Chief, CI, stated that
                      existing case closing documents in the CI function’s
                      document manager electronic forms program instruct the
                      case agent to attach the Judgment and Commitment Order to
                      certain forms and memoranda sent to the civil functions for
                      monitoring terms and conditions of probation. The CI
                      function will take steps to reinforce these existing
                      procedures.
                      Office of Audit Comment: Reinforcing these procedures,
                      along with the CI function’s commitment to provide
                      additional training and revise other procedures as described
                      elsewhere in this report, should ensure the required terms of
                      probation are properly identified, reported, and monitored
                      based on the Judgment and Commitment Orders.
                      2. Establish periodic systemic reports for first-line
                         managers to use to identify and monitor those closed
                         cases requiring the settlement of IRS tax liabilities or
                         provide formal training to first-line managers on the use
                         of the MOM system.
                      Management’s Response: The Chief, CI, agreed to provide
                      training sessions for first-line managers that will include a
                      workshop to help managers understand and effectively use
                      the MOM system’s existing custom query and periodic
                      systemic report to identify, report, and monitor terms and
                      conditions of probation on tax investigations.
                      3. Coordinate with SB/SE Division management to
                         develop clear and concise procedures to define
                         responsibilities and ensure the IRS is controlling and
                         monitoring the accounts of the individuals whose court
                         sentences require the settlement of their civil tax
                         liabilities. These procedures should address the tools
                         needed for monitoring, as well as monitoring other types
                         of conditional terms such as the filing of returns.
                                                                               Page 9
Courts Are Not Always Notified When Criminals Fail to Comply With
           Their Sentences to Settle Civil Tax Liabilities

                      Management’s Response: The Chief, CI, agreed with the
                      recommendation. The CI function and SB/SE Division will
                      review and revise as necessary their existing procedures and
                      guidance on reporting and monitoring terms and conditions
                      of probation on tax investigations. The CI function will
                      coordinate its revisions with the SB/SE Division to ensure
                      closed criminal tax investigations containing terms and
                      conditions of probation are properly identified, reported, and
                      monitored.
                      4. Seek the advice of the respective CI function and SB/SE
                         Division Counsels, in concert with the Office of the
                         Assistant Chief Counsel (Disclosure and Privacy Law),
                         regarding the disclosure of tax returns and tax return
                         information to probation officers in determining
                         noncompliance with conditional terms of probation or
                         supervised release, and revise the appropriate IRM
                         procedures accordingly.
                      Management’s Response: The Chief, CI, advised that
                      procedures already exist within both divisions and are
                      referenced in an IRM section on probation proceedings used
                      by the Disclosure function. Both the CI function and SB/SE
                      Division will reference these IRM sources in any
                      communication issued to field offices on identifying,
                      reporting, and monitoring terms and conditions of
                      probation.
                      Office of Audit Comment: We continue to believe
                      U.S.C. § 6103(h) may allow for a broader interpretation of
                      what can be disclosed to probation officers. Our concern
                      centers on how the IRM phrase “…limited to those years
                      specified in the conditions…” provided in each division’s
                      respective procedures may be interpreted when the
                      conditions imposed by the courts do not specify the tax
                      years to be covered. We believe the disclosure laws would
                      permit disclosure for all tax years covered by the terms of
                      the probation. For example, if the conditions imposed by a
                      court provide for “filing all delinquent or amended returns
                      within 6 months of the sentence date and to timely file all
                      future returns that come due during the period of probation,”
                      disclosure could be made with respect to years for which the
                      individual had not filed income tax returns and those tax
                      returns due during the probationary period. Our

                                                                            Page 10
            Courts Are Not Always Notified When Criminals Fail to Comply With
                       Their Sentences to Settle Civil Tax Liabilities

                                  recommendation was designed to ensure management
                                  considered whether the existing guidance covers this
                                  broader interpretation and provided clarification or
                                  examples if they believed the guidance may not be
                                  interpreted consistently.
                                  We identified numerous errors in the CIMIS data relating to
The Criminal Investigation
                                  the subjects who were sentenced. Of the 172 cases
Management Information
                                  reviewed, 127 (74 percent) had 1 or more errors in the
System Contained Numerous
                                  following data fields:14
Errors That Resulted, or Could
Result, in Inaccurate                  •   Probation expiration date - 69 cases (40 percent).
Information
                                       •   Amount of fine - 36 cases (21 percent).
                                       •   Number of months probation or supervised
                                           release - 32 cases (19 percent).
                                       •   Sentencing violation - 29 cases (17 percent).
                                       •   Number of months sentenced to
                                           confinement - 21 cases (12 percent).
                                       •   Other fields (judicial district code, court docket
                                           number, and terms met) - 42 cases (24 percent).
                                  We identified significant errors in dollar amounts in two
                                  data fields: the amount of the fine to pay and the amount of
                                  criminal deficiency. Although these figures are not
                                  routinely reported to external or internal stakeholders, errors
                                  in them raise concerns about the overall accuracy and
                                  reliability of the information input to the CIMIS. As
                                  described below and in Appendix IV, we identified
                                  approximately $6 billion in overstatements in these 2 data
                                  fields, which adversely affects the reliability of management
                                  information that could be provided in ad hoc reports
                                  generated from the CIMIS.
                                  Inaccurate fine amounts
                                  The CIMIS contains a data field for entering the amounts of
                                  fines to be paid by individuals who are sentenced for
                                  criminal acts. We identified errors in the amounts of the
                                  fines that were input to the CIMIS of $8.4 million for


                                  14
                                    Due to our sampling methodology, our results cannot be projected to
                                  the overall accuracy of the CIMIS data. See Appendix I.
                                                                                               Page 11
Courts Are Not Always Notified When Criminals Fail to Comply With
           Their Sentences to Settle Civil Tax Liabilities

                      2 cases in our review. In both instances, the amount of
                      restitution required to be paid to organizations other than the
                      IRS was input rather than the amount of fine to pay. To
                      evaluate whether this condition existed during the most
                      current fiscal year available, we reviewed the 10 largest
                      amounts input to the CIMIS for FY 2002. This revealed
                      similar errors totaling $1.3 billion. A standard CIMIS
                      management report reflected an average fine to pay amount
                      of $1.2 million for FY 2002. Correcting the errors in these
                      10 cases alone would reduce the average fine to pay for
                      FY 2002 to under $80,000.
                      Inaccurate criminal deficiency amounts
                      The CIMIS also contains a data field for recording the
                      amount of criminal tax calculated in a special agent’s report
                      of an investigation when a case is recommended for
                      prosecution. Instructions for the input of these data stated
                      the sum of the individual criminal deficiencies should not
                      exceed the overall deficiency for the entire investigation. If
                      an investigation involves more than one individual, the
                      criminal deficiency amount should be apportioned among
                      them or input for only one, if not apportioned in the special
                      agent’s report.
                      Three cases included in our review were part of
                      1 investigation that had the criminal deficiency amount for
                      the overall investigation input for each of numerous
                      subjects, resulting in an overstatement of over $2.7 billion.
                      To evaluate whether this condition existed during the most
                      current fiscal year available, we conducted a limited review
                      of large and/or repetitive amounts of criminal deficiencies
                      input to the CIMIS for FY 2002. This showed that over
                      one-half of the $7.4 billion total (approximately
                      $4.7 billion) was in error as follows. For 2 investigations,
                      the cents had been input as dollar amounts, resulting in
                      overstatements of the criminal deficiency amounts of
                      $1.2 billion. Incorrect criminal deficiency amounts had
                      been input for 2 other investigations in addition to being
                      input for multiple subjects, resulting in overstatements of
                      $2.6 billion. Similar input errors occurred for another
                      investigation, resulting in a $900 million overstatement. In
                      addition, the actual amount for this investigation should


                                                                             Page 12
Courts Are Not Always Notified When Criminals Fail to Comply With
           Their Sentences to Settle Civil Tax Liabilities

                      have been input to another CIMIS data field rather than the
                      criminal deficiency data field.
                      While none of the identified inaccuracies affect the CI
                      function’s reported accomplishments to external
                      stakeholders (for example, in IRS Data Books, in the CI
                      function’s Annual Business Reports, or on its public web
                      site),15 our results indicated the CIMIS contained many data
                      errors that could affect analyses used for internal
                      management decisions or results presented in ad hoc reports
                      provided to either internal or external stakeholders.
                      Results of prior CIMIS reviews
                      In April 2003, the IRS Offices of Program Evaluation and
                      Risk Analysis (OPERA) and Statistics of Income (SOI)
                      issued the results of a validation of the accuracy, timeliness,
                      and presence of documentation for various CIMIS data
                      fields that had been conducted in collaboration with the CI
                      function. The validation indicated that CIMIS data tested
                      had an accuracy rate of approximately 91 percent.
                      However, the accuracy rate was this high because of the
                      sampling methodology used. If data were not applicable for
                      a case, the data were considered accurate. Because criminal
                      investigations take several years to complete, many cases
                      selected for the validation had not yet resulted in
                      prosecutions or sentencing. Over 300 of the 475 cases
                      sampled did not have applicable data for the principal
                      sentencing violations and months served data fields.
                      The summary of the OPERA and Office of SOI validation
                      results also advised the validity rates for some fields were
                      closer to the 80 percent validity rate estimated by CI
                      function subject matter experts. The CI function may want
                      to consider emphasizing those data fields as well as
                      assessing the clarity of guidance for coding them.




                      15
                        IRS Data Books are published annually and contain various statistical
                      data pertaining to IRS programs. Reported accomplishments in the
                      three sources include the number of investigations initiated and the
                      number of subjects convicted, sentenced, and incarcerated.
                                                                                    Page 13
Courts Are Not Always Notified When Criminals Fail to Comply With
           Their Sentences to Settle Civil Tax Liabilities

                      The Treasury Inspector General for Tax Administration
                      previously recommended16 the Chief, CI, establish a process
                      by which the CIMIS data will be verified and validated.
                      The Chief, CI, disagreed, stating project plans for a new
                      CIMIS included verification and validation functions and,
                      until the implementation of the new system, the CI function
                      would continue relying on field office management officials
                      to ensure the information in the CIMIS is both current and
                      accurate. Based on discussions with CI function personnel
                      regarding enhancements planned for the upgraded CIMIS,
                      the new system will not have verification and validation
                      functions that would identify or prevent the types of errors
                      identified. Also, based on our tests, field office
                      management officials were not identifying what should have
                      been obvious errors in the CIMIS data.
                      An effective management information system is necessary
                      for measuring program results and making management
                      decisions. As such, the information recorded in the system
                      should be accurate. Without accurate information, CI
                      function management may rely on incorrect data for making
                      management decisions.

                      Recommendations

                      The Chief, CI, should:
                      5. Develop a process to verify and validate the CIMIS data,
                         as previously recommended.
                      Management’s Response: The Chief, CI, agreed with our
                      recommendation and stated the CI Research section will
                      develop a process to identify questionable data field entries
                      for those CIMIS data fields involved with reporting and
                      monitoring terms and conditions of probation and that do
                      not have internal validity checks. The Research section will
                      periodically send a listing of identified questionable entries
                      in the applicable conditional terms of probation data fields
                      to the responsible field office(s) for verification and/or
                      correction.


                      16
                        GPRA: Criminal Investigation Can Improve Its
                      Performance Measures to Better Account for Its Results (Reference
                      Number 2002-10-009, dated January 2002).
                                                                                   Page 14
Courts Are Not Always Notified When Criminals Fail to Comply With
           Their Sentences to Settle Civil Tax Liabilities

                      Office of Audit Comment: Although CI function
                      management agreed to take action to correct questionable
                      entries in the CIMIS, they did not agree with our statements
                      that these errors have a measurable impact on tax
                      administration because the CI function does not report
                      information from these data fields. We previously
                      recognized in our report that these data fields are not
                      routinely used in external or internal reports, but they
                      nonetheless could be used in ad hoc reports for internal
                      management deliberations, as both fines and criminal
                      deficiency amounts can be an integral part of the impact of
                      investigative cases. As such, these data fields should be
                      accurate, so management can have reasonable assurance that
                      the information is reliable. To clarify, we characterize
                      errors of this nature as “reliability of information,” which
                      we express as the absolute value of overstatements or
                      understatements of amounts recorded on an organization’s
                      systems.
                      6. Assess the clarity of guidance for coding some data
                         fields and revise as recommended by the IRS OPERA
                         and Office of SOI.
                      Management’s Response: The Chief, CI, agreed with our
                      recommendation and stated that the CI function will review
                      its existing policy and guidance procedures and CIMIS
                      input instructions on identifying, reporting, and monitoring
                      terms and conditions of probation. The CI function will
                      revise existing policy and guidance documents as needed
                      and issue any clarifying communications to its field offices.
                      In addition, the Chief, CI, stated the pending upgrade of the
                      CIMIS will require a wholesale change of the existing
                      CIMIS manual that details the input information and criteria
                      for each data field identifying, reporting, and monitoring
                      terms and conditions of probation on tax investigations.




                                                                            Page 15
              Courts Are Not Always Notified When Criminals Fail to Comply With
                        Their Sentences to Settle Civil Tax Liabilities

                                                                                                       Appendix I


                           Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine if the Criminal Investigation (CI)
function’s controls and procedures were effective to ensure convicted criminals comply with the
terms of their sentences requiring the settlement of Internal Revenue Service (IRS) civil tax
liabilities. To accomplish our objective, we obtained an extract from the CI function’s
Management Information System (CIMIS)1 for the period ended September 30, 2002. We
confirmed through our transaction testing, described below, that the data in the CIMIS are not
completely reliable. However, in all selected cases, the subjects had been sentenced.
Specifically, we:
I. Reviewed applicable policies and procedures defining responsibilities to ensure compliance
   with terms of sentences relating to the settlement of civil tax liabilities. In addition, we
   consulted with the Treasury Inspector General for Tax Administration Counsel regarding
   legal matters discussed in our report.
II. Determined if subjects identified as having had conditional terms of their sentences relating
    to civil tax liabilities complied with the conditional terms and if appropriate actions were
    taken if they did not comply.
             A. Selected all subjects for 4 judgmentally selected CI function field offices whose
                cases were closed as having been sentenced during October 1, 1999, through
                September 30, 2002, and had conditional probation expiration dates input to the
                CIMIS that were earlier than October 1, 2002. The Chicago, Illinois;
                Cleveland, Ohio; Newark, New Jersey; and Portland, Oregon, field offices were
                selected based on geographic location and the number of cases closed with
                subjects having been sentenced and having conditional probation expiration dates
                in the CIMIS. The total number of cases in the 4 field offices that met the criteria
                was 37. The total number of cases that met the criteria in all CI function field
                offices was 215. The sampling methodology used was due to the small number of
                cases and because we did not intend to project our results to the entire universe of
                cases.
             B. Randomly selected 34 cases that were closed during the same period but did not
                have conditional probation expiration dates input to the CIMIS from each of the
                4 judgmentally selected CI function field offices, for a total of 136.2 The total
                number of cases from each selected office that met the criteria was 627 (146, 135,

1
  The CIMIS is a database that tracks the status and progress of criminal investigations and the time expended by
special agents. It is also used as a management tool that provides the basis for decisions of both local and national
scope.
2
  One case was a duplicate selection. A total of 135 different cases were reviewed.
                                                                                                              Page 16
                 Courts Are Not Always Notified When Criminals Fail to Comply With
                           Their Sentences to Settle Civil Tax Liabilities

                    235, and 111, respectively). The total number of cases that met the criteria in all
                    CI function field offices was 5,946. We used this sampling methodology because
                    we did not intend to project our results to the entire universe of cases.
                    For those subjects selected in tests II.A. and II.B., we:
                        1. Obtained and reviewed United States (U.S.) District Court documents.
                        2. Reviewed the subjects’ tax account data.
                        3. Interviewed CI function and Small Business/Self-Employed Division
                           personnel.
III. Determined if the CIMIS accurately identified and contained information relating to the
     sentences of the subjects selected in tests II.A. (37 cases) and II.B. (135 cases, excluding the
     1 duplicate case) and assessed the impact of any inaccuracies on the CI function’s reported
     accomplishments.
               A. Compared data obtained from U.S. District Court documents to data in the CIMIS
                  relating to convictions and sentences for those cases selected in our samples.
               B. Reviewed selected CIMIS data for Fiscal Year 2002 relating to fines assessed and
                  criminal deficiencies. We reviewed court documents and contacted CI function
                  personnel to determine the actual amounts.
               C. Reviewed CI function accomplishments reported internally and externally in
                  CIMIS reports, in Business Performance Review Reports, in IRS Data Books,3
                  and on the CI function public web site.




3
    IRS Data Books are published annually and contain various statistical data pertaining to IRS programs.


                                                                                                             Page 17
           Courts Are Not Always Notified When Criminals Fail to Comply With
                     Their Sentences to Settle Civil Tax Liabilities

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Diana M. Tengesdal, Audit Manager
Todd Anderson, Senior Auditor
Donald L. McDonald, Senior Auditor
Janice A. Murphy, Senior Auditor




                                                                                      Page 18
           Courts Are Not Always Notified When Criminals Fail to Comply With
                     Their Sentences to Settle Civil Tax Liabilities

                                                                           Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Director, Office of Governmental Liaison and Disclosure CL:GLD
Director, Operations Policy and Support SE:CI:OPS
Division Counsel/Associate Chief Counsel (Criminal Tax) CC:CT
Division Counsel/Associate Chief Counsel (Small Business/Self-Employed) CC:SBSE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls N:CFO:AR:M
Audit Liaisons:
       Director, Planning and Strategy, Criminal Investigation SE:CI:S:PS
       Commissioner, Small Business/Self-Employed Division SE:S




                                                                                  Page 19
              Courts Are Not Always Notified When Criminals Fail to Comply With
                        Their Sentences to Settle Civil Tax Liabilities

                                                                                                     Appendix IV


                                             Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on the reliability of information in the Criminal Investigation (CI)
function’s Management Information System (CIMIS).1 Reliability of information is expressed as
the absolute value of overstatements or understatements of amounts recorded on the
organization’s systems. These benefits will be incorporated into our Semiannual Report to the
Congress.
Type and Value of Outcome Measure:
•   Reliability of Information – Actual; an overstatement of $4.7 billion was identified for the
    criminal deficiency amounts recorded in the CIMIS for Fiscal Year (FY) 2002 (see page 11).
Methodology Used to Measure the Reported Benefit:
We conducted an analysis and review of select large and/or repetitive criminal deficiency
amounts entered in the CIMIS for FY 2002. We subsequently reviewed court documents and
followed up with appropriate CI function personnel to determine the correct amounts that should
have been entered in the CIMIS. The overstatement is accounted for as follows:
         For 2 investigations, the cents had been input as dollar amounts, resulting in
         overstatements of the criminal deficiency amounts of $1.2 billion.
         Incorrect criminal deficiency amounts had been input for 2 other investigations in
         addition to being input for multiple subjects, resulting in overstatements of $2.6 billion.
         Similar input errors occurred for another investigation, resulting in a $900 million
         overstatement.
Type and Value of Outcome Measure:
•   Reliability of Information – Actual; an overstatement of $1.3 billion was identified for the
    fine amounts recorded in the CIMIS for FY 2002 (see page 11).
Methodology Used to Measure the Reported Benefit:
We conducted an analysis and review of the 10 largest fine amounts entered in the CIMIS for
FY 2002. We subsequently reviewed court documents to determine the correct amounts that
should have been entered in the CIMIS.


1
 The CIMIS is a database that tracks the status and progress of criminal investigations and the time expended by
special agents. It is also used as a management tool that provides the basis for decisions of both local and national
scope.

                                                                                                              Page 20
Courts Are Not Always Notified When Criminals Fail to Comply With
          Their Sentences to Settle Civil Tax Liabilities

                                                              Appendix V


        Management’s Response to the Draft Report




                                                                    Page 21
Courts Are Not Always Notified When Criminals Fail to Comply With
          Their Sentences to Settle Civil Tax Liabilities




                                                                    Page 22
Courts Are Not Always Notified When Criminals Fail to Comply With
          Their Sentences to Settle Civil Tax Liabilities




                                                                    Page 23
Courts Are Not Always Notified When Criminals Fail to Comply With
          Their Sentences to Settle Civil Tax Liabilities




                                                                    Page 24
Courts Are Not Always Notified When Criminals Fail to Comply With
          Their Sentences to Settle Civil Tax Liabilities




                                                                    Page 25
Courts Are Not Always Notified When Criminals Fail to Comply With
          Their Sentences to Settle Civil Tax Liabilities




                                                                    Page 26
